OFFICE OF INSPECTOR GENERAL
   for the Millennium Challenge Corporation


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
FINANCIAL STATEMENTS, INTERNAL
CONTROLS, AND COMPLIANCE FOR
THE PERIOD ENDING SEPTEMBER
30, 2005 AND THE NINE MONTH
PERIOD ENDING SEPTEMBER 30,
2004


AUDIT REPORT NO. M-000-06-001-C
December 6, 2005


WASHINGTON, DC
Office of Inspector General
   for the
Millennium Challenge Corporation




December 6, 2005

MEMORANDUM

TO:                  John J. Danilovich, Chief Executive Officer, Millennium Challenge Corporation

FROM:                John M. Phee, AIG/MCC /s/

SUBJECT:             Audit of the Millennium Challenge Corporation’s Financial Statements, Internal
                     Controls, and Compliance for the Period Ending September 30, 2005 and the Nine
                     Month Period Ending September 30, 2004 (Report No. M-000-06-001-C)

Enclosed is the final report on the subject audit. The Office of Inspector General (OIG) contracted
with the independent certified public accounting firm of Williams, Adley and Company, LLP to
audit the financial statements of the Millennium Challenge Corporation (MCC) for the period
ending September 30, 2005 and the nine month period ended September 30, 2004. The contract
required that the audit be performed in accordance with generally accepted auditing standards and
Office of Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal
Financial Statements.

In its audit of the Millennium Challenge Corporation’s (MCC) financial statements for the period
ending September 30, 2005 and the nine month period ended September 30, 2004, the WA & Co.
auditors found that:

     •	      the financial statements were fairly presented in conformity with U.S. generally
          accepted accounting principles,

     •	      four reportable conditions regarding the controls over financial reporting and its
          operations. One of the four reportable conditions is a material weakness, and

     •	 three instances of noncompliance with laws and regulations. Two of the three instances of
        noncompliance were related to its financial and accounting system.


The material weakness and the reportable conditions identified in MCC’s internal controls relate to
Millennium Challenge Corporation’s need to develop written policies and procedures to


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
                                            - 2 -


streamline its financial operations. Because of this material weakness and the reportable
conditions, there is an increased risk of improper recording, unauthorized transactions,
omissions, potential funds control violations and noncompliance with laws and regulations.
Williams, Adley and Company, LLP reported the following internal control weaknesses:

   1.	 MCC’s Policies and Procedures Were Not Always Complete and Consistent (material
       weakness)

   2.	 MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective and
       Efficient Management of Travel (reportable condition)

   3.	 MCC’s Policies for Disbursing Advances to Grantees Do Not Accommodate Effective
       Cash Management Nor the Appropriate Recording of Custodial Interest Receivable and
       Payable (reportable condition and noncompliance)

   4.	 MCC’s Human Resources Responsible for Managing Its Financial Operations are
       Inadequate (reportable condition)


Williams, Adley and Company, LLP also reported the following instances of noncompliance
with laws, regulations, contracts, and grant agreements, inclusive of those referred to in the
Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed instances of
noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States, and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements:

   1.	 MCC did not fully comply with Federal Financial Management Improvement Act
       (FFMIA) and Government Performance Results Act (GPRA) (material noncompliance).

   2.	 MCC did not fully comply with Federal Information Security Management Act FISMA
       (material noncompliance).

   3.	 MCC’s Policies for Disbursing Advances to Grantees Does Not Accommodate Effective
       Cash Management Nor the Appropriate Recording of Custodial Interest Receivable and
       Payable (reportable condition and noncompliance)

In carrying out its oversight responsibilities, the OIG reviewed Williams, Adley and Company,
LLP report and related audit documentation. This review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not intended to
enable the OIG to express, and we do not express, opinions on MCC’s financial statements or
internal control; on whether MCC’s financial management systems substantially complied with
FFMIA; or on MCC’s compliance with other laws and regulations. Williams, Adley and
Company, LLP is responsible for the attached auditors’ report, dated November 7, 2005, and the
conclusions expressed in the report. However, our review disclosed no instances where
                                            - 3 -


Williams, Adley and Company, LLP did not comply, in all material respects, with applicable
standards.

Because of the internal control weaknesses and the noncompliance finding reported by Williams,
Adley and Company, LLP we are making the following recommendations to MCC’s management:

       Recommendation No. 1: We recommend that MCC’s Office of Finance and
       Administration revise and reissue written policies and procedures that provide
       additional specificity including the Fund Balance with Treasury, financial reporting,
       payroll processing, accrual generation and reporting, interagency reporting, fixed
       assets, travel, monitoring and internal grant processes.

       Recommendation No. 2: We recommend that MCC management:

             2.1 	 Develop and disseminate to its staff explicit policies to ensure that its
                  employees are aware of and follow the Federal Travel Regulations. The
                  policies should require that any exceptions to the policies be documented
                  and approved by a manager/supervisor in writing.

            2.2 	 Institute policies and procedures to ensure proper authorizations and
                 approvals are obtained and coordination with the Office of Finance and
                 Administration has occurred for each planned trip prior to travel to
                 ensure that the information is properly captured in the financial
                 management system.

            2.3 	 Develop and institute controls to reject those expenses claimed that exceed
                  the allowable country per diem unless explicit written authorization is
                  provided prior to travel.

       Recommendation No. 3: We recommend that MCC management:

            3.1 	 Develop policies and procedures to ensure that the payment schedules
                  and other agreements entered into with grantees are reflective of the
                  Treasury requirements concerning advances and immediate cash needs.

            3.2	 Establish policies and procedures to ensure that any custodial liabilities,
                 e.g. interest owed to the U.S. government resulting from the grantee
                 advances, are properly recorded.

       Recommendation No. 4: We recommend that MCC evaluate and document the need
       for additional employees in its Office of Finance and Administration to ensure that
       proper internal controls are in place to meet the agency’s objectives. Additionally,
       the roles and responsibilities of the current Controller position and the new
       positions in the Office of Finance and Administration should be clearly delineated
       and communicated to its staff.
                                              -4-

       Recommendation No. 5: We recommend that MCC management:

             5.1 	   a) Complete the development of a strategic plan for the next 6 fiscal
                     years that meets OMB requirements, b) Involve MCC staff in the
                     determination of corporate performance goals, and c) Establish and
                     communicate operational performance goals for FY 2006 that align
                     with the defined strategic goals and submit the operational goals to the
                     Board and OMB.

             5.2	    Assess the automated options available to handle MCC operations and
                     develop short range and long range plans for the implementation of the
                     most appropriate information technology structure to address
                     electronic integration of at least the payroll, procurement and travel
                     functions and systems to increase the efficiencies and effectiveness of
                     the processing of financial transactions; and decrease the risk of errors.


In finalizing the report, we have received and considered your response to the draft report and
the recommendations included therein. Based on your response to our recommendations, we
consider that management decision has been reached on Recommendations No. 1, 2, 4, and 5.
However, management decision has not been reached on Recommendation No. 3. According to
your response you will study the action recommended by recommendation No. 3 and will provide
us the results of that study within 30 days. Please forward to us all information related to your
management decision on recommendation No. 3 and the final actions you have taken to implement
the other recommendations. See the Exhibit for the full text of MCC’s Management Comments.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
Williams, Adley and Company, LLP during the audit. Please contact Alvin A. Brown at (202)
712-1003, if you have any questions concerning this report.
This page intentionally left blank
                            TABLE OF CONTENTS
                                                      Page

Management Discussion and Analysis                     1


Independent Auditors’ Report                          13 


   Opinion on Financial Statements                    14 


   Internal Control Over Financial Reporting          15 


   Compliance with Laws and Regulations               24 


   Status of Prior Year Finding                       29 


   Management Comments and Our Evaluation             30 


   Management Comments - Exhibit                      32 


Statement of Financial Position                       36 


Statement of Operations and Changes in Net Position   37 


Statement of Functional Expenses                      38 


Statement of Cash Flows                               39 


Statement of Budgetary Resources                      40 


Notes to Financial Statements                         41 

This page intentionally left blank
              MANAGEMENT’S DISCUSSION AND ANALYSIS


On January 23, 2004, the United States established the Millennium Challenge Account
(MCA), an innovative new foreign assistance program designed to reduce extreme poverty
by promoting sustainable economic growth. The MCA grew out of the U.S. commitment at
the Monterrey Summit on Financing for Development, as President Bush said, “to provide
greater resources for developing countries taking greater responsibility for their own
development.” The Millennium Challenge Corporation (MCC) is a government corporation
that was established to administer the MCA. Congress has provided MCC significant levels
of funding to implement this new initiative.

Mission: MCC’s mission is to reduce poverty by supporting sustainable,
transformative economic growth in developing countries which create and
maintain sound policy environments.
In the 21 months since its creation, MCC has laid the underpinnings of programs to address
and implement the purposes of The Millennium Challenge Act of 2003, “To provide
assistance “in a manner that promotes economic growth and the alleviation of extreme
poverty and strengthens good governance, economic freedom, and investments in people.”
Accordingly, MCC is focused on this long-term, targeted foreign policy mission, and
occupies a very vital and innovative niche in the U.S. government’s overall foreign
assistance program.

MCC’s Organization
MCC is governed by a Board of Directors composed of the Secretary of State, the Secretary
of the Treasury, the U.S. Trade Representative, the Administrator of the United States
Agency for International Development (USAID), the CEO of MCC, and four public
members1 appointed by the President and confirmed by the Senate. The Secretary of State is
the Chair of the Board and the Secretary of Treasury is the Vice Chair. MCC is managed by
a Chief Executive Officer appointed by the President and confirmed by the Senate.

MCC is designed to make maximum use of flexible authorities to optimize efficiency in
contracting, program implementation, and personnel. MCC is committed to hiring and
retaining a small but highly talented workforce from diverse backgrounds.

MCC organizes its work into the following areas:

Office of the Chief Executive Officer (CEO): responsible for managing MCC operations
in a manner that reflects policies of the Board of Directors and also achieves MCC’s
objectives in accordance with applicable laws and regulations and Congressional directives.


1
 Two public members, Kenneth Hackett, President of Catholic Relief Services, and former Governor Christine
Todd Whitman, who previously served as Administrator of the Environment Protection Agency, were
confirmed by the Senate in July 2004. The other two public Board member positions remain open.


                                              Page 1 of 48
Country Programs manage MCC's relationship with eligible countries through all phases of
the MCA.

Markets and Sector Assessments provide technical expertise on specific development
function areas, such as infrastructure, agriculture, and financial sectors, as well as conducting
assessments related to environmental compliance and fiscal accountability.

Monitoring and Evaluation oversees the assessment of economic logic, growth and poverty
reduction impact of country proposals and programs, the establishment of monitoring and
evaluation plans, and the collection and analysis of performance measurement data.

Administration and Finance
A&F is responsible for planning and directing all activities related to financial management
and budgeting; human resources management; information technology infrastructure,
resources and management; procurement and acquisition; security; facilities management;
administrative services; and corporate records management.

Development Policy (DP)2 is responsible for identifying policy issues, analyzing alternative
approaches and recommending strategies for the most effective execution of MCC's mission.
DP also manages the selection process and the policy indicators used to evaluate countries'
policy performance.

Domestic Relations (DR): DR is responsible for managing MCC's relationship with
Congress, key Executive departments and the press, working on issues relevant to MCC and
other constituencies key to MCC's mission.

International Relations (IR): IR oversees MCC relations with other donors and multilateral
organizations. It coordinates MCC positions on international development initiatives,
recommends activities and policies to advance USG and MCC interests, and represents MCC
at meetings regarding multilateral and donor issues.

Office of General Counsel (OGC): OGC is responsible for providing advice to MCC's
Board of Directors and MCC staff on all legal issues affecting MCC.


           PERFORMANCE GOALS, OBJECTIVES AND RESULTS FOR FY 2005

Although MCC has been driven by a very clearly articulated Mission statement since its
creation, a formal strategy has not yet been published at the end of fiscal year 20053. As
more fully described in Material Weakness #1 below, MCC did not have detailed
performance goals for fiscal year 2005. Clear operational objectives were set for calendar
2005 as detailed below. Actual accomplishments for fiscal year 2005 are presented below


2
    The offices of Development Policy and International Relations were consolidated in October 2005.
3
    A draft strategic plan was submitted to MCC’s Board in October 2005.


                                                 Page 2 of 48
for information. MCC has developed a detailed strategic plan and is developing measurable
performance goals linked to that plan that will be issued in early fiscal year 2006.

OBJECTIVE: Improve Program Operations
Performance Targets                           Accomplishments
(for calendar 2005):                          (for fiscal 2005):
     Finalize board approval for 7 – 9        5 Compacts approved by Board;
        quality compacts and conclude
        steps necessary to initiate 3 Section  4 Section 609(g) actions approved by
        609(g) grants to countries with           Board with countries with which
        whom compacts will not have been          compacts were not signed.
        signed in 2005, with an aggregate
        of 10 – 12 grants to countries;


    ----------------------------------------------   --------------------------------------------------
     Set up implementation systems,                  Implementation systems initiated and
         resident mission plans, and begin                resident missions established in 2
         implementation in 4 – 6 Compact                  Compact countries.
         countries;

    -------------------------------------------      --------------------------------------------------
     Finalize Board approval for 7 – 9               2 Threshold Programs approved by
         Threshold Programs and begin                     Board;
         implementation on 6 – 8 Threshold            1 Threshold Program began
         Programs;                                        implementation.
    --------------------------------------------     --------------------------------------------------
     Complete 2006 MCA-eligible &                    Pending Board approval in November
         Threshold country selection,                     2005.
         including improvements in
         selection criteria.



        OBJECTIVE: Organizational Capacity and Maturity

Performance Targets:                                 Accomplishments:
    Complete staffing plan matched to                Staff built to 147, slightly behind
      desired organizational capacity,                  plans, with retention rate exceeding
      with retention rate at 90 – 95%.                  90%.

--------------------------------------------------    ------------------------------------------------
      Complete essential policy papers                Critical policy papers and guidance to
         and improved guidance to                          countries published.
         countries.
--------------------------------------------------   --------------------------------------------------


                                                Page 3 of 48
    	 Develop effective internal control                Initial set of internal controls put in
       environment, documentation and                     place. 

       implementation of internal controls 

       and systems. 


--------------------------------------------------   --------------------------------------------------
     	 Implement strategic performance                First stage performance assessment
         assessment and compensation plan.                and compensation plans in place.


        Effective Communications and Constituency Relations

Performance Targets:                                 Accomplishments:
    Implement communications plan.                   Not yet accomplished.

--------------------------------------------------   --------------------------------------------------
      Implement Congressional outreach                Congressional outreach begun.
         plan.
--------------------------------------------------   ------------------------------------------------
      Provide input into reauthorization              Completed; final action pending
         bill.                                            Congressional action.

--------------------------------------------------   --------------------------------------------------
      Submit Congressional Budget                     Submitted and pending Congressional
         Justification for FY 2006.                       action.



ALIGNMENT WITH THE PRESIDENT’S MANAGEMENT AGENDA

MCC significantly advanced its alignment with The President’s Management Agenda, as
follows:

•	 Strategic Management of Human Capital: MCC has made extensive and continuing use
   of the flexibilities in place to acquire and retain talent and leadership, and has maximized
   the number of staff in front-line program positions.

•	 Competitive Sourcing: MCC has consistently competed services eligible for such
   competition with both private and federal government suppliers, outsourcing a
   considerable part of both its program and support activities.

•	 Improved Financial Performance: MCC has meet expectations for timely and accurate
   reporting, with timely, unqualified audit opinions for both years of its existence.




                                                Page 4 of 48
•	 Expanded Electronic Government: MCC has used web-based technologies to enhance
   transparency of its operations, both with domestic constituencies and globally with
   partner countries.

•	 Budget and Performance Integration: MCC is building its assistance programs around
   explicit measurable results, resulting in clearly visible critical integration of program
   spending and performance. (Following a set of output objectives for calendar 2005,
   MCC has, since the end of the fiscal year, initiated a more rigorous process of developing
   performance goals integrated with its operating budget.)



                       MCC’s FINANCIAL STATEMENTS

MCC financial statements, which appear on pages 36-40 of this report, received an
unqualified opinion issued by the Independent Auditors. MCC management is responsible
for the integrity and objectivity of the financial information presented and the audit report
attests to the reliability and veracity of management information.

The financial statements provide an overview of MCC’s evolving character, a lean
corporation that manages a substantial development assistance fund with focused human
resources. MCC’s operational strategy is to maximize the use of its human capital to further
its primary business objectives. Accordingly, the bulk of MCC’s back office operations,
such as financial, information technology and human resource management, have been
outsourced, while MCC maintains overall responsibility for these functions.

MCC’s key administrative costs are staff salaries and benefits, travel, rent and operational
services. Salaries and benefits accounted for about 46% of all administrative costs and travel
costs closely linked to due diligence and monitoring account for about 14% of all
administrative costs.

MCC’S SYSTEMS, CONTROLS AND LEGAL COMPLIANCE: FEDERAL
MANAGER’S FINANCIAL INTEGRITY ACT AND MANAGEMENT’S
RESPONSIBILITY FOR INTERNAL CONTROLS (OMB A-123 (Revised))

The Federal Manager’s Financial Integrity Act (FMFIA)

FMFIA requires management of federal agencies to establish controls in accordance with
standards prescribed by the Comptroller General and these controls must provide reasonable
assurance that:
    •	 Obligations and costs are in compliance with applicable law;
   •	 Funds, property, and other assets are safeguarded against waste, loss, unauthorized
      use, or misappropriation; and




                                         Page 5 of 48
   •	 Revenues and expenditures applicable to corporate operations are properly recorded
      and accounted for to permit the preparation of accounts and reliable financial and
      statistical reports.
OMB Circular A-123, Management’s Responsibility for Internal Control

On December 21, 2004 the Office of Management and Budget (OMB) revised OMB Circular
A-123 Management’s Responsibility for Internal Control, which defines management's
responsibility and accountability for internal control in Federal agencies, beginning fiscal
year 2006.
The revised circular reflects policy recommendations intended to strengthen the requirements
for conducting management’s assessment of internal control over financial reporting and
emphasize the need for agencies to integrate and coordinate internal control assessments with
other internal control-related activities.
In order to strengthen the internal control over financial reporting, Circular A-123 reaffirms
management responsibility for establishing and maintaining internal control to achieve the
following objectives:
   •	 Effective and efficient operations;
   •	 Reliable financial reporting; and
   •	 Compliance with applicable laws and regulations.
Moreover, the circular requires management to consistently apply the five internal control
components outlined by the GAO to meet each of the internal control objectives and to assess
internal control effectiveness. In addition, the circular requires management to provide
annual assurances on internal control in its Performance and Accountability Report (PAR),
including a separate assurance on internal control over financial reporting, along with a
report on identified material weaknesses and corrective actions.

In anticipation of the new OMB requirements applicable in FY 2006, MCC performed its
first internal control assessment based on these more stringent standards by including the
requirements of both the FMFIA and OMB A-123 (revised). While the material weaknesses
identified in this report addresses both requirements, the CEO’s certification, his annual
statement in response to these findings, is limited to the scope of what is required by the
FMFIA. The CEO has qualified the FMFIA assurance for FY 2005. His certification is
provided below:




                Federal Managers’ Financial Integrity Act Certification

    Based on the results of a comprehensive internal control assessment directed by
    management of the Millennium Challenge Corporation (MCC) and
    recommendations from senior officials and staff, I certify that the Corporation’s
    management accountability and internal control systems that were in effect on


                                          Page 6 of 48
    September 30, 2005 provide reasonable assurance that the objectives of the
    Federal Managers’ Financial Integrity Act were achieved, with the exception of
    the four material weaknesses identified in the Management’s Discussion &
    Analysis portion of this report. In addition, the report includes a detailed
    discussion of the material weaknesses and actions that MCC will be taking in
    future months to resolve them.

    Charles O. Sethness
    November 7, 2005

The CEO’s certification is based on information gathered from various sources, including
MCC managers’ knowledge of existing controls, day-to-day operations, a management-
initiated study of risks and internal controls, and reviews and audits by the OIG and GAO.
MCC’s evaluation of risk also included the revised OMB A-123 guidelines that come into
effect in fiscal year 2006.

In determining whether a weakness in MCC’s internal controls is “material”, MCC considers
whether such identified weakness meets one or more of the following criteria:

 •	 Significantly impairs the Corporation’s ability to achieve its objectives;
 •	 Results in the use of resources in a way that is inconsistent with the Corporation’s 

    mission; 

 •	 Violates statutory or regulatory requirements;
 •	 Results in a significant lack of safeguards against waste, loss, unauthorized use, or 

    misappropriation of funds, property, or other assets; 

 •	 Impairs the ability to obtain, maintain, report, and use reliable and timely information
    for decision-making;
 •	 Permits improper or unethical conduct or a conflict of interest;
 •	 Results in a material misstatement in the financial reports.

MCC has identified the following material internal control weaknesses and has developed an
action plan to remedy these weaknesses.

Weakness # 1:	        MCC’s strategic plan does not fully comply with the Government
                      Performance and Results Act (GPRA).

Discussion:	          MCC did not have a strategic plan in FY 2005. MCC has made
                      significant progress in drafting a strategic plan that is in alignment
                      with GPRA. This act requires that federally funded organizations
                      develop and implement an accountability system, based on
                      performance measurement, including setting goals and objectives and
                      measuring progress toward achieving them. While MCC has
                      developed a set of strategic goals and means to achieve them, it has not
                      articulated measurable performance goals which align with the 2006 –
                      2011 plans.



                                        Page 7 of 48
Remediation Plan:   The following actions are to be completed by March, 2006

                         •    Complete the development of a strategic plan for the next 6
                              fiscal years that meets OMB requirements.
                         •    Involve MCC staff in the determination of corporate
                              performance goals.
                         •    Articulate operational performance goals which align with the
                              defined strategic goals.

Weakness # 2:       MCC does not fully comply with the Federal Information Security
                    Management Act (FISMA).

Discussion:         The Federal Information Security Management Act (FISMA) provides
                    the framework for securing the federal government’s information
                    systems. Agencies covered by FISMA are required to report annually
                    to OMB and Congress on the effectiveness of their information
                    security programs. Specifically, FISMA requires agencies to have 1)
                    periodic risk assessments; 2) information security policies, procedures,
                    standards, and guidelines; 3) delegations of authority to the CIO to
                    ensure compliance with policy; (4) security awareness training
                    programs; (5) procedures for detecting, reporting, and responding to
                    security incidents; and (6) plans to ensure continuity of operations.
                    FISMA also requires an annual independent evaluation of the agency’s
                    information security program, which is separate from the Performance
                    Assessment Report. Only significant deficiencies identified under
                    FISMA are to be reported as a material weakness under the FMFIA.
                    In a report issued June 2005 an OIG audit identified significant non
                    compliance with FISMA requirements. Subsequently, MCC
                    completed its FISMA report to OMB as of September 30, 2005, where
                    it acknowledged that it had not met the majority of the FISMA
                    requirements and proposed a timetable for compliance.

Remediation Plan:   The following actions are to be completed by September 30, 2006

                     •       Implement the action plan set forth in MCC’s report of
                             September 30, 2005 to implement material compliance with the
                             requirements of FISMA by September 30, 2006.

Weakness # 3:       MCC does not fully comply with the provisions of the Federal
                    Financial Management Information Systems Act (FFMIA)

Discussion:         The Federal Financial Management Improvement Act (FFMIA) of
                    1996 is designed to improve federal financial management by
                    requiring that financial management systems provide reliable,
                    consistent disclosure of financial data in accordance with generally
                    accepted accounting principles (GAAP) and standards. The FFMIA


                                        Page 8 of 48
requires MCC to implement and maintain a financial management
system that complies substantially with federal requirements for an
integrated financial management system, applicable federal accounting
standards and U.S. Standard General Ledger at the transaction level.
The OIG is required to report on compliance with these requirements
as part of the annual audit of MCC’s financial statements.

MCC has outsourced all its back office business functions to the
Department of Interior’s National Business Center (NBC) under the
auspices of the OMB Center of Excellence initiative. NBC uses the
following systems to record MCC’s transactions:

 •	 Financial Management: Oracle Federal Financials.
 •	 Human Resource and Payroll management: Federal Personnel
    and Payroll System (FPPS) and Excel spread sheets.
 •	 Procurement: Microsoft Office Template to generate contract
    documents, Excel spread sheets to manage contract actions, and
    Oracle Federal Financials to manually record procurement
    transactions.
 •	 Travel: E-Travel to perform travel authorizations and Oracle 

    Federal Financials to manually record travel transactions. 


Oracle Federal Financials and Statement on Auditing Standard (SAS)
70:
Because NBC is MCC’s service provider, it has been essential to
ensure that it performs an SAS-70 review; SAS-70 is an internationally
recognized auditing standard developed by the American Institute of
Certified Public Accountants (AICPA). A SAS 70 review is widely
recognized, because it represents that a service organization has been
through an in-depth review of its control activities, which generally
include controls over information technology and related processes.
Service organizations must demonstrate that they have adequate
controls and safeguards when they host or process data belonging to
their customers.

NBC uses the Oracle Federal Financial System to record MCC’s
financial transactions. While this system has been approved by the
Joint Federal Management Improvement Program, the sub-systems
used such as FPPS, Procurement and E-Travel are not fully integrated
or interfaced. In its FY 2004 annual report, MCC identified
integration as a challenge. MCC discussed these requirements at
length with NBC and OMB and will continue to do so in the future.

In FY 2004, the OIG recommended that MCC request NBC to perform
an SAS 70 audit of the Oracle Federal Financial System used to
process MCC’s financial transactions. Through this review, which


                 Page 9 of 48
                    was completed in September 2005 for the period March 1 through July
                    2005, NBC has certified its applicability with regard to the period
                    ending September 30, 2005. As the audit did not address the entire
                    fiscal year, the balances have been verified through alternative audit
                    procedures. As a result, the FY 2004 OIG audit recommendation was
                    closed.

                    FPPS: The FPPS system does not permit the management of staff in its
                    entirety: organization plans; recruitment, evaluation, etc. The FPPS
                    system is separate from the Oracle Federal Financial System (OFF)
                    and an electronic interface has been created to record disbursements.
                    However, this interface does not simultaneously create or link to an
                    existing obligation of funds. In order to enable the FPPS interface, the
                    OFF has been set up to permit the recording of a disbursement without
                    being preceded by an obligation. This results in a less than desired
                    level of funds control. OMB approved NBC as a “Center of
                    Excellence for HR and Payroll services, and NBC is expected to
                    implement a new system that will be interfaced with the OFF system
                    that will address these shortfalls in the next two to three years.

                    Procurement: The procurement system used by MCC, which has not
                    been approved by the federal government, requires manual entry of
                    financial data into the OFF system, increasing the risk of data entry
                    and timing errors.

                    E-Travel: The E-Travel system is also not integrated with the OFF
                    system and requires manual entry of financial data, increasing the risk
                    data entry and timing errors.

Remediation Plan:   The following actions are to be completed as indicated below

                    Address the following integration issues:
                       	 Continue to address the integration issues outside MCC’s
                          control with NBC, such as complete integration with FPPS and
                          E-travel.
                       	 Implement a procurement system solution by March 31, 2006.
                       	 Ensure that all commercial off-the-shelf programs implemented
                          by MCC and NBC are integrated and/or interfaced and that
                          NBC performs a SAS 70 review of these functions.

Weakness # 4:       MCC has not developed or documented internal control
                    procedures detailing the responsibilities of employees at each
                    control level, i.e. from the data entry functions to the various
                    administrative approvals.




                                     Page 10 of 48
Discussion:	         The independent auditors have reported that MCC’s operating
                     procedures in the many functional areas such as payroll processing,
                     budget preparation, reconciliations, accruals, travel, fixed assets,
                     monitoring, and internal grant processes are too general or incomplete.
                     These procedures do not identify the responsible persons at the various
                     control levels, including the administrative approval of transactions,
                     processing of data and data entry functions. This lack of sufficient
                     detail and accountability in internal control procedures may result in
                     ineffective and inefficient processing of transactions and non
                     compliance with laws and regulations.

Remediation Plan:	   The following actions are to be completed as indicated below

                     •	 Develop formal procedures to address the key material weaknesses
                        identified by no later than June 30, 2006 and ensure that these
                        policies and procedures provide internal and external timelines,
                        and adequate internal documentation.




                                      Page 11 of 48
This Page intentionally Left Blank




          Page 12 of 48 

                               Independent Auditors’ Report


Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the accompanying Statements of Financial Position of the Millennium
Challenge Corporation (MCC or Corporation) as of September 30, 2005 and 2004, and the
related Statements of Operations and Changes in Net Position, Cash Flows, and Budgetary
Resources for the year ended September 30, 2005 and the nine months ended September 30,
2004. These financial statements are the responsibility of Corporation management. Our
responsibility is to express an opinion on these financial statements based on our audit.

In connection with our audit, we also considered the MCC’s internal control over financial
reporting and tested the MCC’s compliance with certain provisions of applicable laws,
regulations, contracts and grant agreements that could have a direct and material effect on the
financial statements.

SUMMARY

As stated in our opinion, we concluded that the MCC’s financial statements of and for the
year ended September 30, 2005 and as of and for the nine months ended September 30, 2004
are presented fairly, in all material respects, in conformity with accounting principles
generally accepted in the United States of America.

Our consideration of internal control over financial reporting and its operation resulted in
four matters that we consider to be reportable conditions. We believe that one of the four
reportable conditions is a material weakness.

   1 	 MCC’s Policies and Procedures Were Not Always Complete and Consistent (material
       weakness)

   2.	 MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective
       and Efficient Management of Travel (reportable condition)
   3.	 MCC Policies for Disbursing Advances to Grantees Do Not Accommodate Effective
       Cash Management Nor the Appropriate Recording of Custodial Interest Receivable
       and Payable (reportable condition and noncompliance)

   4.	 MCC’s Human Resources Responsible for Managing It Financial Operations are
       Inadequate (reportable condition)

The results of our tests of compliance with certain provisions of laws, regulations, contracts,
and grant agreements, inclusive of those referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA), disclosed three instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards, issued
by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements:

   1.	 MCC did not fully comply with FFMIA and GPRA (material noncompliance)

   2.	 MCC did not fully comply with Federal Information Security Management Act
       (material noncompliance)

   3.	 MCC Policies for Disbursing Advances to Grantees Do Not Accommodate Effective
       Cash Management Nor the Appropriate Recording of Custodial Interest Receivable
       and Payable (reportable condition and noncompliance)

The following sections discuss our opinion on the MCC’s financial statements, our
consideration of the MCC’s internal control over financial reporting, our tests of the MCC’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements, and the distribution of our report.


OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying Statements of Financial Position of the Corporation as of
September 30, 2005 and 2004, and the related Statements of Operations and Changes in Net
Position, Cash Flows, and Budgetary Resources for the year ended September 30, 2005 and
the nine months ended September 30, 2004. These financial statements are the responsibility
of Corporation management. Our responsibility is to express an opinion on these financial
statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, and
the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements. Those standards require that we plan and perform the audit to
obtain reasonable assurance that the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting



                                        Page 14 of 48
principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial positions of the Corporation as of September 30, 2005 and 2004, and
changes in net position, cash flows and budgetary resources for the year ended September 30,
2005 and for the nine months ended September 30, 2004, in conformity with accounting
principles generally accepted in the United States of America.

Our audit was made for the purpose of forming an opinion on the basic financial statements
of the Corporation taken as a whole. The information contained in the Management’s
Discussion and Analysis is not a required part of the financial statements but is
supplementary information required by the Federal Accounting Standards Advisory Board
guidance. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of the
information. However, we did not audit the information and do not express an opinion
thereon.

The accompanying Statement of Functional Expenses for the year ended September 30, 2005
and as summarized for the nine months ended September 30, 2004, are presented for
purposes of additional analysis and are not a required part of the basic financial statements.
This statement is the responsibility of the management of the Corporation. The information
in this statement has been subjected to the auditing procedures applied in our audit of the
basic financial statements and, in our opinion, is fairly stated in all material respects when
considered in relation to the basic financial statements taken as a whole.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our fiscal year 2005 audit, we considered MCC’s internal control
over financial reporting by obtaining an understanding of MCC’s internal control, determined
whether internal controls had been placed into operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing an opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 01-02 and
Government Auditing Standards. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), such as those controls relevant to ensuring efficient operations. The objective of
our audit was not to provide assurance on internal control; accordingly, we do not provide an
opinion on internal control.

Our consideration of internal control over financial reporting would not necessarily disclose
all matters that might be reportable conditions. Under standards issued by the American
Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control



                                         Page 15 of 48
over financial reporting that, in our judgment, could adversely affect MCC’s ability to record,
process, summarize, and report financial data consistent with the assertions by management
in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal
controls, misstatements, losses or noncompliance may occur and not be detected.

We noted four matters involving the internal control over financial reporting and its
operation that we consider to be reportable conditions. We believe that one reportable
condition is a material weakness.



MATERIAL WEAKNESS



MCC’s Policies and Procedures Were Not Always Complete and Consistent

Condition:

During the fiscal year, the Millennium Challenge Corporation (MCC) has used various
processes to address the financial aspects of their operations. These processes have evolved
during the year as the organization has grown in personnel and operations. In this growth,
however, the development of written policies and procedures to guide MCC’s streamlined
operational structure has not been a high priority for MCC in several areas. However,
written policies and procedures must be in place to ensure operational efficiencies, risk
reduction, and consistent application.

In the prior year, we noted that draft accounting policies and procedures had been prepared
but not finalized. Also, we noted that written policies and procedures were incomplete.
Based on our internal control review in the current year, we noted that MCC’s operating
procedures in the areas of payroll processing, Fund Balance with Treasury reconciliation,
quarterly accruals, annual leave accruals, travel, fixed assets, monitoring, and internal grant
processes are too general or incomplete. Several procedures do not address the responsible
positions at the various control levels for the processing of data/data entry functions, or
submission and approval levels.

Examples of the inconsistent or incomplete policies and procedures include:

   •	 An advance given by MCC to Madagascar MCA was obligated and disbursed
      simultaneously. The proper process had not been developed and documented to


                                        Page 16 of 48
        ensure the MCC’s Controller’s involvement in the internal aspects of funds control
        and grants management for proper sequencing and appropriate timing of this
        transaction.

    •	 MCC follows the Federal Travel Regulations for employee travel and uses E-Travel;
       a General Services Administration (GSA) approved and maintained electronic travel
       system. In our testing, however, we noted that MCC’s current travel policy does not
       provide sufficient controls to ensure that appropriate coordination occurs with the
       Office of Finance and Administration to ensure that the information is captured in the
       financial management system, and adequate explanations from employees and
       approvals from supervisors are provided for expenses in excess of the per diem.

    •	 MCC’s standard funds control policy requires the recording of a commitment,
       followed by an obligation and then a payment. However, during our internal control
       testing of obligations and related disbursements, we noted the following:

            ¾	 3 out of 80 obligation/disbursement sample items amounting to $42,661
               ($513,154 projected to the obligation population) were not supported by
               obligating documents.

            ¾	 Per the SAS 70 review performed at the National Business Center (NBC), an
               Independent Audit Firm found that the Oracle Federal Financial system will
               allow disbursements to be made without an obligation previously being
               entered. This condition was primarily established to allow for the posting of
               payroll disbursements from another nonintegrated NBC system. Also, NBC
               established it to permit the recording of any disbursement or accrual without a
               preceding obligation. In order to mitigate this system limitation, MCC
               records an estimated bi-weekly payroll obligation to ensure funds availability.
               This manual process, however, is inefficient and increases MCC’s risk.

Criteria:

The Standards for Internal Control in the Federal Government states that internal controls
and all transactions and other significant events need to be clearly documented and the
documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals. Also,
information should be recorded and communicated to management and others within the
entity who need it and in a form and within a timeframe that enables them to carry out their
internal control and other responsibilities.

Additionally, management and employees should establish and maintain an environment
throughout the organization that sets a positive and supportive attitude toward internal
control and conscientious management. A positive control environment is the foundation for
all other standards. It provides discipline and structure as well as the climate, which
influences the quality of internal controls.




                                        Page 17 of 48
Cause:

MCC management stated that because they are a new entity, the Corporation is still
developing its final procedures. Therefore, MCC management developed many informal
procedures in order to meet obligation/disbursement deadlines. Recently, MCC and NBC
have initiated a process in which the Controller approves miscellaneous obligation
documents that are transmitted electronically to NBC.

Effect:

The lack of sufficient detail and accountability in the procedures produced inconsistent
application of the travel policies and increased the risk of errors, improper recording,
unauthorized transactions, omissions; potential funds control violations and noncompliance
with laws and regulations. This also diminished the effectiveness and efficiency with which
the financial transactions were being processed.

Recommendation # 1:

We recommend that MCC’s Office of Finance and Administration revise and reissue written
policies and procedures that provide additional specificity in the areas noted above including
the Fund Balance with Treasury, financial reporting, payroll processing, accrual generation
and reporting, interagency reporting, fixed assets, travel, monitoring and internal grant
processes. These policies and procedures should provide the following information at a
minimum:

   •	     Position accountable for each step in the process,
   •	     Position responsible for approving/reviewing the information,
   •	     The acceptable internal and external timelines for each step in the process, and
   •	     The specific documentation required determining the authorization, timeliness and
          review of transaction.

For example, prior to signing final grant agreements, the authorized signer should ensure that
the fund citation is indicated and that the Controller has indicated funds availability. To
record a grant obligation, a copy of the approved agreement with fund citation and indication
of funds availability should be provided to the NBC accountant.

Also, the recently issued accrued annual leave policy indicates that NBC will obtain the
amount of the accrued annual leave balance from FPPS. The policy, however, does not
address how, who, nor acknowledge that it will mean a coordination between various NBC
offices.




                                        Page 18 of 48
Management Response:

The management decision is to accept and implement this recommendation as soon as
possible. We recognize that the informal procedures that served us in the past need to be
formalized and procedures strengthened to align responsibilities with control objectives in
order to manage and mitigate risks.




REPORTABLE CONDITIONS



MCC’s Travel Disbursement Controls and Procedures Do Not Permit the Effective and
Efficient Management of Travel

Condition:

According to MCC’s management, MCC has adopted the Federal Travel Regulations as its
overall policy related to travel. MCC's internal travel policies and procedures do not permit
the effective and efficient management of travel. These procedures do not ensure that travel
is adequately planned and managed. Because a blanket travel authorization is used, there is
no record of individual travel that has taken place and the accounting for each instance.
Additionally, the policy does not require that appropriate coordination include the Office of
Finance and Administration. For example, the Office of Finance and Administration should
have knowledge of planned trips, the timing, exceptions to the standard travel policy, and the
estimated costs in order to ensure that sufficient obligations have been recorded to cover
expenses incurred by MCC travelers. Currently, an initial estimate is prepared annually to
fund the blanket travel authorization and the estimate is adjusted quarterly by the controller
based upon expense patterns. There are, however, no automated processes in place to ensure
that the estimate is sufficient to cover the travel expenses incurred. This problem is
compounded by the untimely filing of travel vouchers thereby increasing the difficulty and
reducing the accuracy of the estimation process performed by the controller.

E-Travel is a GSA managed and mandated system that is used by MCC to assist the traveler
in managing the travel process and processing their voucher upon their return. Although E-
Travel is electronic, it does not interface with Oracle Federal Financials (OFF) and has
limited functionality, such that it does not allow a traveler to submit a reclaim voucher.
Currently, after the traveler prepares a voucher and the voucher is approved, the voucher is
forwarded to NBC. At NBC an accounting technician manually enters each voucher into
OFF.




                                        Page 19 of 48
We identified the following internal control deficiencies related to travel voucher
reimbursements:

    •	 Nine of 122 travel vouchers totaling $1,383 exceeded lodging per diem. No
       approvals of the lodging per diems were provided nor were the excess rejected by the
       system or the approving official.
    •	 Three of 122 travel vouchers totaling $507 had “Other” costs claimed that were not
       documented. We noted that there was no additional explanation provided as to what
       the expenses were for.

Criteria:

As stated in the Government Accountability Office (GAO)’s Standards for Internal Control
in the Federal Government, transactions and other significant events should be authorized
and executed only by persons acting within the scope of their authority. This is the principal
means of assuring that only valid transactions to exchange, transfer, use or commit resources,
and other events are initiated or entered into.          Authorizations should be clearly
communicated to managers and employees. Additionally, internal control and all
transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. Also, the Chief Financial
Officer’s Act of 1990 requires each agency’s CFO to develop and maintain an integrated
financial management system, including financial reporting and internal control standards
that comply with applicable accounting principles, standards, and requirements.

Cause:

Currently, MCC records a blanket authorization that covers all employees at the beginning of
each year. The blanket authorization addresses the basic policies but does not address
deviation from the standard policy. Employees are not required to submit a separate travel
authorization form, for each trip, that would address any special conditions or deviations
from the maximum per diems and other authorized expenses. According to MCC
management, employees were requested to obtain pre-approval when they know that the
rates are higher than the maximum rate allowed. However, employees did not follow
procedures in these instances.

Effect:

As a result of non-enforcement of the travel policies, employee travel expenses of
approximately $11,940 ($1,890 projected to the travel expense population of $3,980,087) are
unsupported and potentially approved without adequate documentation. Also, there is an
increased risk of travel inefficiency, and non-compliance with Federal Travel Regulations.
Additionally, MCC’s processing of travel vouchers is inefficient because it currently requires
the manual entry of information from E-Travel to OFF. The lack of individual travel
authorizations increases the difficulty and reduces the accuracy of the estimation process
performed by the controller.




                                        Page 20 of 48
Recommendation #2:

We recommend that MCC management:

   (1) Develop and disseminate explicit policies to ensure that employees are aware of and
       follow the Federal Travel Regulations. Any exception should be documented and
       approved by a manager/supervisor in writing.
   (2) Institute policies and procedures to ensure proper authorizations and approvals are
       obtained and coordination with its Office of Finance and Administration has occurred
       for each planned trip prior to travel to ensure that the information is properly captured
       in the financial management system.
   (3) Develop and institute controls to reject those expenses claimed that exceed the
       allowable country per diem unless explicit written authorization is provided prior to
       travel.

Management Response:

The management decision is to accept and implement this recommendation as soon as
possible. In this regard, MCC has recently issued its travel policy incorporating the
principles enumerated in the FTR and also included procedures to strengthen the internal
control environment. MCC will also reevaluate its travel authorization practices and
procedures to ensure that they meet the desired control objectives. MCC has also
commenced discussions with the National Business Center, Department of Interior, to
determine if it would be feasible to migrate to a different General Services Administration
approved software provider to accomplish travel management, as the developers of E-Travel
have not met many of the requirements in a timely fashion.



MCC Policies for Disbursing Advances to Grantees Does Not Accommodate Effective
Cash Management Nor the Appropriate Recording of Custodial Interest Receivable and
Payable

Condition:

MCC entered into a compact with Madagascar in April 2005. The Compact became
effective in July 2005 and an immediate advance was provided to MCA Madagascar
amounting to $2,500,924. Based upon information obtained at year-end, MCA Madagascar
has expended $650,000 of the initial advance.

Through various OMB Circulars, OMB has attempted to address the need for advances to
cover immediate cash needs or timely disbursements of an entity for direct program costs for
carrying out the purpose of the approved program or project. Thus, funds paid to a grantee
are not to be held but are to be promptly applied to the grant purpose. Although the
timeframe for immediate cash needs has not been clearly defined by OMB, the general rules




                                        Page 21 of 48
employed by various Federal agencies are 30 days for non-governmental entities. Based
upon this definition, MCC has provided Federal funds in excess of immediate cash needs.

Criteria:

Per the Appropriations Law Volume II, advances under an assistance program are intended to
accomplish the program purposes and not to profit the recipient other than in the manner and
extent specified in the program. Also, when funds are drawn from Treasury before it is
needed, or in excess of current needs, the government loses the use of the funds.

Cause:

The approved agreements entered into by MCC with MCA Madagascar and other compact
grantees indicate that quarterly advances will be provided based upon their estimated costs.
Furthermore, MCC’s management does not agree that immediate cash needs represent a term
shorter than quarterly.

Effect:


As a result of holding funds in excess of current needs, the MCA Madagascar has incurred a
liability of approximately $16 thousand for the interest on the average outstanding advance.
MCC has not adhered to Treasury’s requirement for immediate cash needs and the US
Treasury has incurred interest expenses on these funds disbursed to MCA Madagascar.




Recommendation #3:

We recommend that management:

    (1) Develop policies and procedures to ensure that the payment schedules and other
        agreements entered into with grantees are reflective of the Treasury requirements
        concerning advances and immediate cash needs.
    (2) Establish policies and procedures to ensure that any custodial liabilities, e.g. interest
        owed to the U.S. government resulting from the grantee advances, are properly
        recorded.

Management Response:

MCC has not arrived at a management decision with regard to this recommendation. We
believe that this recommendation needs further management study before we can come to a




                                         Page 22 of 48
conclusion on this recommendation. We expect to reach a management decision within 30
days, as required by regulation.




                                    Page 23 of 48 

MCC’s Human Resources Responsible for Managing It Financial Operations are
Inadequate

Condition:

During our internal control and substantive testing we noted that the MCC relies solely on
the Controller, with contract assistance, to perform the substantial duties of the Office of
Finance and Administration. The current range of Controller responsibilities include, but is
not limited to, the approval of miscellaneous obligations; monthly, quarterly and yearly
financial information review; development of financial policies and procedures; financial
statement review; audit coordination; coordination with other agencies including OMB,
USAID/OIG, and NBC; and approval of funds availability.

Criteria:

The Standards for Internal Control in the Federal Government states that a control activity
includes management of human capital. Specifically, as part of its human capital planning,
management should consider how best to retain valuable employees, plan for their eventual
succession, and ensure continuity of needed skills and abilities.

Cause:

MCC’s has not revamped its organizational structure to reflect the impact of its current
staffing and operational levels on its Office of Finance and Administration.

Effect:

Significant reliance on a single individual to perform key financial duties can result in the
following:

    •     Lack of a review of quarterly/annual financial statements,
    •     Lack of a secondary review of MCC’s financial activities processed by NBC, and
    •     Obligations of funds prior to review of funds availability.

Additionally, it does not provide for backstops and continuity.

Recommendation # 4:

We recommend that MCC evaluate and document the need for additional employees in
Office of Finance and Administration to ensure that proper internal controls are in place to
meet the agency’s objectives. Thus, providing the Controller with adequate delegation of
authority. Additionally, the roles and responsibilities of the current Controller position and
the new positions in its Office of Finance and Administration should be clearly delineated
and communicated.




                                         Page 24 of 48
Management Response:

The management decision is to accept and implement this recommendation as soon as
possible. As a matter of fact, MCC has advertised and is actively recruiting for an additional
position – a Deputy Chief Financial Officer. The responsibilities of the positions will be
clearly drawn after the staff is hired to ensure the most appropriate mix of skills.

The status of the prior year finding is provided in Appendix A.

As required by OMB Bulletin No. 01-02, with respect to internal controls related to
performance measures determined by management to be key and reported in the
Management’s Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions. Our
procedures were not designed to provide assurance on internal control over performance
measures and, accordingly, we do not provide an opinion thereon.


COMPLIANCE WITH LAWS AND REGULATIONS

MCC’s management is responsible for complying with laws and regulations applicable to
MCC. As part of obtaining reasonable assurance that MCC’s balance sheet is free of
material misstatement, we performed tests of its compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations
specified in OMB Bulletin No. 01-02, including the requirements referred to in the FFMIA.
We limited our tests of compliance to these provisions and we did not test compliance with
all laws, regulations, contracts, and agreements applicable to MCC. Providing an opinion on
compliance with laws, regulations, contracts, and grant agreements was not an objective of
our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether MCC’s
financial management systems substantially comply with: (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level. To meet this requirement, we
relied on the results of a SAS 70 review of the Department of Interior’s Oracle Federal
Financial System performed by an Independent Audit Firm. The results of that review have
been presented to MCC in a separate report. Providing an opinion on compliance with those
provisions was not, however, an objective of our audit and, accordingly, we do not express
such an opinion.

The results of our tests disclosed that the Corporation did not fully comply with the FFMIA,
which is required to be reported under Government Auditing Standards or OMB Bulletin No.
01-02.

Under FFMIA, we are required to report whether the Corporation’s financial management
systems substantially comply with the Federal financial management systems requirements,



                                        Page 25 of 48
applicable Federal accounting standards, and the United States Government Standard
General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed three instances of noncompliance with laws and regulations.

MATERIAL NONCOMPLIANCE

MCC Did Not Fully Comply with FFMIA and GPRA

Condition:

Millennium Challenge Corporation has not complied with the following laws and
regulations:

    •   Federal Financial Management Improvement Act (FFMIA)

    •   Government Performance and Results Act (GPRA)

MCC has not implemented and maintained a financial management system that complies
substantially with Federal requirements for an integrated financial management system as
required by the Federal Financial Management Improvement Act (FFMIA). When MCC
decided to outsource its accounting operations, MCC selected NBC from the available
Federal Centers of Excellence as the best choice to meet its needs. In order to address the
needs of MCC, multiple systems, i.e. E-Travel, procurement, and FPPS, are used but these
systems cannot exchange data electronically. The entry of the travel expenses and
disbursements must be done manually. The entry of obligations and commitments requires a
process of emails, scanning and manual entry into OFF. The payroll expenses and
disbursements must be uploaded into OFF from FPPS.

MCC has not developed performance goals and objectives that comply with the requirements
of the GPRA. Although MCC has several guiding objectives, they do not meet the
requirements of GPRA. The information in Management’s Discussion and Analysis are not
sufficient to meet GPRA requirements and the goals presented are on a calendar year basis
rather than a fiscal year.

Criteria:



The FFMIA requires MCC to implement and maintain a financial management system that
complies substantially with Federal requirements for an integrated financial management
system.

GPRA requires each agency to prepare an annual performance plan covering each program
activity set forth in the budget of such agency. Such plan shall


                                        Page 26 of 48
 (1) establish performance goals to define the level of performance to be achieved by a
     program activity;
 (2) express such goals in an objective, quantifiable, and measurable form unless authorized
     to be in an alternative form under subsection (b);
 (3) briefly describe	 the operational processes, skills and technology, and the human,
     capital, information, or other resources required to meet the performance goals;
 (4) establish performance indicators to be used in measuring or assessing the relevant
     outputs, service levels, and outcomes of each program activity;
 (5) provide a basis for comparing actual program results with the established performance
     goals; and
 (6) describe the means to be used to verify and validate measured values.

Also, the performance report should evaluate the performance plan for the current fiscal year
relative to the performance achieved toward the performance goals in the fiscal year covered
by the report.

Cause:

The Millennium Challenge Corporation (Corporation) does not have its own financial
system. The Corporation has contracted with NBC to provide accounting and IT services
including usage of its OFF application. The MCC is required by government regulations to
use Federal Centers of Excellence of which NBC is one. According to MCC officials the
Corporation has been directed to use the systems available through NBC. MCC believes that
in fiscal year 2005 it used the only options available. NBC is working with MCC to provide
enhancement to the system to accommodate MCC needs within the context of the OMB
requirements for Centers of Excellence.

MCC has developed strategic goals but it has not articulated performance goals. Also, the
strategic objectives were originally developed for the calendar year and not the fiscal year.

Effect:

Furthermore, because MCC does not have an integrated financial management system and
the inefficiencies caused by the manual processes, the users may not receive financial
information that is complete, accurate, and timely for decision-making purposes.

Because the MCC has not established and communicated its performance goals and its
strategic objectives were originally developed for the calendar year and not the fiscal year.
The reader of the financial statements is not provided with a clear picture of the
accountability and achievements of the Corporation.

Recommendation # 5:

We recommend that MCC management:




                                        Page 27 of 48
(1)	   Assess the automated options available to handle MCC operations and develop short
       range and long range plans for the implementation of the most appropriate
       information technology structure to address electronic integration of at least the
       payroll, procurement and travel functions and systems to increase the efficiencies and
       effectiveness of the processing of financial transactions; and decrease the risk of
       errors.

(2)	   Implement their intended corrective actions for preparation of a GPRA based
       performance goals and objectives by March 2006 as specified in its FMFIA
       assessment, specifically:
       •	 Complete the development of a strategic plan for the next 6 fiscal years that meets
           OMB requirements.
       •	 Involve MCC staff in the determination of corporate performance goals.
       •	 Articulate operational performance goals for FY 2006 that align with the defined
           strategic goals and submit to the Board and OMB.

Management Response:

(1) 	 FFMIA: The management decision is to accept this recommendation and pursue its
      implementation. However, MCC recognizes that the outcomes are outside its direct
      management control. MCC was established to be a lean efficient operation and
      accordingly, many facets of its back-office operations have been outsourced. MCC was
      required to outsource many of these functions such as financial management, human
      resource and payroll management, and travel management, to a USG entity, and MCC
      selected NBC to perform its back-office work. NBC operates on many legacy
      information systems that are not interfaced or integrated with MCC’s core financial
      management system. This leads to non-compliance with FFMIA and also makes MCC
      operations inefficient. MCC is cognizant of these issues and identified FFMIA non
      compliance as a material weakness in its FMFIA report, which is included in this
      report. MCC will work diligently within the span of its control to comply not only with
      the FFMIA requirements, but more importantly to improve its operational efficiency,
      effectiveness and transparency.

(2) GPRA: The management decision is to accept this recommendation and pursue its
    implementation. As of the date of this management response, the following actions
    have been undertaken:
    ¾ A strategic plan for the next 6 fiscal years has been approved by MCC’s Board and
       submitted to OMB.
    ¾ A working group comprising a broad cross-section of MCC staff is actively
       engaged in developing corporate performance goals for FY 2006.
    ¾	 MCC management expects to adopt operational performance goals for FY 2006 and
       2007 that align with the defined strategic goals, and submit these goals to MCC’s
       Board and OMB.




                                       Page 28 of 48
MCC does not fully comply with the Federal Information Security Management Act
(FISMA)
In a report issued June 2005 an OIG audit identified significant non-compliance with FISMA
requirements. Subsequently, MCC completed its FISMA report to OMB as of September 30,
2005, where it acknowledged that it had not met the majority of the FISMA requirements and
proposed a timetable for compliance.

We are reporting this deficiency as required by the guidance issued by the Office of
Management and Budget. However, because this deficiency was addressed in a prior OIG
audit report we are not making any recommendation in this report.

MCC Policies for Disbursing Advances to Grantees Does Not Accommodate Effective
Cash Management Nor the Appropriate Recording of Custodial Interest Receivable and
Payables

The internal control finding “MCC Policies for Disbursing Advances to Grantees Does Not
Accommodate Effective Cash Management Nor the Appropriate Recording of Custodial
Interest Receivable and Payable” is also a noncompliance with laws and regulations.

The complete finding and recommendation for this finding is presented in the internal control
section of this report. We are not making any recommendation for this finding because we
reported and made recommendations for corrective actions in the internal control section of
this report.


DISTRIBUTION

This audit was performed pursuant to the Government Corporation Control Act, and is
intended solely for the information and use of the United States Congress, the President, the
Director of the Office of Management and Budget, Comptroller General of the United States,
the Corporation and its Inspector General, and is not intended to be, and should not be, used
by anyone other than these specific parties.




November 7, 2005 

Washington, D.C. 





                                       Page 29 of 48
   Appendix A
                                                                                Appendix A


                         STATUS OF PRIOR YEAR FINDING



Review of Oracle Federal Financial System

The Millennium Challenge Corporation (Corporation) does not have its own financial
system. The Corporation contracted with the Department of Interior, National Business
Center (NBC) to provide accounting and IT services including usage of its Oracle Federal
Financial System application. The NBC has not conducted an internal control review, such
as a Statement of Auditing Standards (SAS) 70 review of the Oracle Federal Financials
System nor has MCC directed NBC as its third-party servicer to have a review conducted in
accordance with the federal system requirements.

Recommendation
We recommend that MCC direct the National Business Center to conduct an internal control
review, such as a SAS 70 review to assess the control environment of the Oracle Federal
Financial System.

Status
The NBC performed a SAS 70 review of the Oracle Federal Financial System for the period
March 1, 2005 to July 31, 2005. The independent auditors reported that the relevant aspects
of the NBC’s controls that had been placed in operation are suitably designed to provide
reasonable assurance that the specified control objectives would be achieved, except for the
following two items:
    •	 OFF requires transactions exceeding a dollar threshold to be approved by certifying
       officers. The electronic workflow in OFF currently does not require the approval by
       certifying officers of all such transactions.
    •	 NBC is responsible for monitoring budgetary accounts for MCC. However, OFF
       limit edits are not designed to prevent obligations from exceeding the allotment.

They provided a self-certification asserting no change in the system controls from August 1
to September 30, 2005. No system review was performed for the period October 1, 2004 to
February 28, 2005.




                                     Page 30 of 48
Management       We received and evaluated MCC’s management comments to the
Comments   and   recommendations made in this report. We considered their
Evaluation       comments to be responsive and have included them in their entirety
                 in the Exhibit.

                 In its response MCC’s management stated that it recognizes the
                 importance of accountability, transparency and public disclosure,
                 and that their goal is to achieve excellence in our financial
                 management, reporting and internal control systems. Further,
                 MCC’s management commented that it will implement all but one
                 of the recommendations as soon as possible to strengthen our
                 systems of internal controls and lend further credibility to our
                 financial statements. MCC’s management went on to address each
                 recommendation and provided specific dates by which it will
                 implement these recommendations (theses dates are provided
                 below). MCC’s management also recognized and thanked both the
                 OIG and Williams, Adley & Company, for working closely with
                 them during the audit process and providing counseling and
                 support throughout the year.

                 Based on MCC’s comments, we consider that a management
                 decision has been reached on recommendation nos. 1, 3, 4, and 5
                 provided in this report. MCC should report to the OIG when final
                 action has been taken on the recommendations and when a
                 management decision is reached on recommendation no. 2. The
                 following is a brief summary of MCC’s management comments on
                 the five recommendations included in this report and our evaluation
                 on those comments.

                 Recommendation No. 1

                 MCC management agreed with recommendation No. 1 and to
                 implement this recommendation no later than June 30, 2006.
                 MCC’s management also commented that they recognize that the
                 informal procedures that served them in the past need to be
                 formalized and procedures strengthened to align responsibilities
                 with control objectives in order to manage and mitigate risks.

                 Recommendation No. 2

                 MCC management agreed with recommendation No. 2 and will
                 implement this recommendation no later than March 31, 2006.
                 MCC also commented that it recently issued its travel policy
                 incorporating the principles enumerated in the FTR and also
                 included procedures to strengthen the internal control environment.



                            Page 31 of 48
MCC will also reevaluate its travel authorization practices and
procedures to ensure that they meet the desired control objectives.
MCC has also commenced discussions with the National Business
Center, Department of Interior, to determine if there are other
things that can be done to improve this condition.

Recommendation No. 3

MCC management did not reach a management decision with
regard to this recommendation. MCC’s management commented
that they believe that this recommendation needs further
management study before we can come to a conclusion on this
recommendation. MCC’s management expects to reach a
management decision within 30 days.

Recommendation No. 4

MCC management agreed with recommendation No. 4 and agreed to
implement this recommendation no later than March 31, 2006. As
a matter of fact, MCC has advertised and is actively recruiting for
an additional position – a Deputy Chief Financial Officer. The
responsibilities of the positions will be clearly drawn after the staff
is hired to ensure the most appropriate mix of skills.

Recommendation No. 5

MCC management agreed with recommendation No. 5 and agreed to
implement the portion of this recommendation that pertains to the
GPRA no later than March 31, 2006 and the portion that pertains
to FFMIA no later than September 30, 2006. MCC’s management
commented that as of the date of this management response 1) A
strategic plan for the next 6 fiscal years has been approved by
MCC’s Board and submitted to OMB, 2) A working group
comprising a broad cross-section of MCC staff is actively engaged
in developing corporate performance goals for FY 2006, and 3)
MCC management expects to adopt operational performance goals
for FY 2006 and 2007 that align with the defined strategic goals,
and submit these goals to MCC’s Board and OMB, MCC’s
management also commented that they will work diligently within
the span of its control to comply not only with the FFMIA
requirements, but more importantly to improve its operational
efficiency, effectiveness and transparency.




            Page 32 of 48
                                                                                     Exhibit



             Millennium Challenge Corporation
             Reducing Poverty Through Growth



November 18, 2005

To:           MCC/A, John Phee

From:         Vice President for Finance and Administration, Gary Keel/s/

Subject:        Management response to draft Independent Auditor’s Report on MCC’ s
                Financial Statements for Fiscal Years ended September 30, 2005 and 2004,
                respectively.
___________________________________________________________________________
_____________
We have received the subject draft report and are pleased to note that the independent
auditors, Williams, Adley & Company, LLP, are issuing an unqualified opinion on our
principle financial statements: the Statements of Financial Position, Operations and Changes
in Net Position, Cash Flows, Functional Expenses and Budgetary Resources, despite the
internal control weakness that have been identified. MCC recognizes the importance of
accountability, transparency and public disclosure, and our goal is to achieve excellence in
our financial management, reporting and internal control systems. Accordingly, we will
implement all but one of the recommendations as soon as possible to strengthen our systems
of internal controls and lend further credibility to our financial statements. We wish to
recognize and thank you and your team, as well as Williams, Adley & Company, for working
closely with us during the audit process and especially for the excellent counsel and support
you have provided us throughout the year. We look forward to working with you and your
staff on the FY 2006 audit. Any questions may be addressed to Nimalka Wijesooriya,
Comptroller at MCC, or to me.

Following are our management decisions regarding the proposed audit recommendations.

Material Weakness 1: MCC needs to improve its Policies and Procedures

Recommendation: We recommend that MCC’s Office of Finance and Administration revise
and reissue written policies and procedures that provide additional specificity in the
following areas noted above including the Fund Balance with Treasury, financial reporting,
payroll processing, accrual generation and reporting, interagency reporting, fixed assets,
travel, monitoring and internal grant processes. These policies and procedures should
provide the following information at a minimum:
    • Position accountable for each step in the process;
    • Position responsible for approving/reviewing the information;
    • The acceptable internal and external timelines for each step in the process; and



                                     Page 33 of 48
                                                                                        Exhibit


   •	 The specific documentation required determining the authorization, timeliness and
      review of transaction.

Management Decision: The management decision is to accept and implement this
recommendation no later than June 30, 2006. We recognize that the informal procedures that
served us in the past need to be formalized and procedures strengthened to align
responsibilities with control objectives in order to manage and mitigate risks.



Reportable Condition 1: MCC Should Devise and Implement Improved Travel
Disbursement Controls and Procedures


Recommendation: We recommend that MCC management:

   (4) Develop and disseminate explicit policies to ensure that employees are aware of and
       follow the Federal Travel Regulations. Any exception should be documented as to
       why and approved by a manager/supervisor in writing.
   (5) Institute policies and procedures to ensure proper authorizations and approvals are
       obtained and coordination with the Office of Finance and Administration has
       occurred for each planned travel prior to the travel occurrence including ensuring
       funds availability.
   (6) Develop and institute controls to reject those expenses claimed that exceed the
       allowable country per diem unless explicit written authorization is provided prior to
       travel.



Management Decision: The management decision is to accept and implement this
recommendation no later than March 31, 2006. In this regard, MCC has recently issued its
travel policy incorporating the principles enumerated in the FTR and also included
procedures to strengthen the internal control environment. MCC will also reevaluate its
travel authorization practices and procedures to ensure that they meet the desired control
objectives. MCC has also commenced discussions with the National Business Center,
Department of Interior, to determine if it would be feasible to migrate to a different General
Services Administration approved software provider to accomplish travel management, as
the developers of E-Travel have not met many of the requirements in a timely fashion.


Reportable Condition 2: MCC Needs to Address its Policies on Immediate Cash Needs and
the Accruing of Interest on Grant Funds



Recommendation: We recommend that management:



                                       Page 34 of 48
                                                                                        Exhibit



   (3) Develop policies and procedures to ensure that the payment schedules and other
       agreements entered into with grantees are reflective of the Treasury requirements
       concerning advances and immediate cash needs.
   (4) Establish policies and procedures to ensure that any custodial liabilities, e.g. interest
       owed to the U.S. government resulting from the grantee advances are properly
       recorded.

Management Decision: MCC has not arrived at a management decision with regard to this
recommendation. We believe that this recommendation needs further management study
before we can come to a conclusion on this recommendation. We expect to reach a
management decision within 30 days, as required by regulation.

Reportable Condition 3: MCC Needs to Address Human Capital Needs in Office of
Finance and Administration


Recommendation: We recommend that MCC evaluate and document the need for additional
employees in to ensure that proper internal controls are in place to meet the agency’s
objectives, thus providing the Controller with delegation authority. Additionally, the roles
and responsibilities of the current Controller position and the new positions in Office of
Finance and Administration should be clearly delineated and communicated.

Management Decision: The management decision is to accept and implement this
recommendation no later than March 31, 2006. As a matter of fact, MCC has advertised and
is actively recruiting for an additional position – a Deputy Chief Financial Officer. The
responsibilities of the positions will be clearly drawn after the staff is hired to ensure the
most appropriate mix of skills.

Material Noncompliance: MCC Did Not Fully Comply with FFMIA and GPRA

Recommendation: We recommend that MCC management:
   (3) Implement their intended corrective actions for preparation of a GPRA based
       performance goals and objectives by March 2006 as specified in its FFMIA
       assessment, specifically:
       •	 Complete the development of a strategic plan for the next 6 fiscal years that meets
           OMB requirements.
       •	 Involve MCC staff in the determination of corporate performance goals.
       •	 Articulate operational performance goals for FY 2006 that align with the defined
           strategic goals and submit to the Board and OMB; and
   (4) Assess the automated options available to handle MCC operations and develop short
       range and long range plans for the implementation the most appropriate information
       technology structure to address electronic integration of at least the payroll,
       procurement and travel functions and systems to increase the efficiencies and
       effectiveness of the processing of financial transactions; and decrease the risk of
       errors.


                                      Page 35 of 48
                                                                                      Exhibit



Management Decision:

(1)     	GPRA: The management decision is to accept this recommendation and complete
         implementation by no later than March 31, 2006. As of the date of this management
         response, the following actions have been undertaken:
         •	 A strategic plan for the next 6 fiscal years has been approved by MCC’s Board
             and submitted to OMB.
         •	 A working group comprising a broad cross-section of MCC staff is actively
             engaged in developing corporate performance goals for FY 2006.
         •	 MCC management expects to adopt operational performance goals for FY 2006
             and 2007 that align with the defined strategic goals, and submit these goals to
             MCC’s Board and OMB.

(2) 	   FFMIA: The management decision is to accept this recommendation and complete
        implementation by no later than September 30, 2006. However, MCC recognizes that
        the outcomes are outside its direct management control. MCC was established to be a
        lean efficient operation and accordingly, many facets of its back-office operations
        have been outsourced. MCC was required to outsource many of these functions such
        as financial management, human resource and payroll management, and travel
        management, to a USG entity, and MCC selected NBC to perform its back-office
        work. NBC operates on many legacy information systems that are not interfaced or
        integrated with MCC’s core financial management system. This leads to non
        compliance with FFMIA and also makes MCC operations inefficient. MCC is
        cognizant of these issues and identified FFMIA non-compliance as a material
        weakness in its FMFIA report, which is included in this report. MCC will work
        diligently within the span of its control to comply not only with the FFMIA
        requirements, but more importantly to improve its operational efficiency,
        effectiveness and transparency.




                                      Page 36 of 48
Millennium Challenge Corporation
Statement of Financial Position
As of September 30, 2005 and 2004



                                                                                            Pre-Compact                     Evaluation and
                                                             2005 Total        Compacts       Funding          Threshold       Support     Administrative      Audit        2004 Total
 Assets
 C urrent Assets
   Fund Balance with Treasury (Note 2)                   $ 2,358,547,000 $ 2,273,365,909 $      21,843,188 $    20,000,000 $     19,546,020 $   23,110,024 $    681,859 $    989,816,579
   Receivables/Advances/Prepayments (Note 3)                   4,338,698       1,805,924                 -               -        2,500,000         32,774            -          168,599
  Fixed Assets
   Leasehold Improvements (Note 4)                             4,244,059               -                 -               -                -      4,244,059            -                -
 Total Assets                                            $ 2,367,129,757 $ 2,275,171,833 $      21,843,188 $    20,000,000 $     22,046,020 $   27,386,857 $    681,859 $    989,985,178



 Liabilities
   Accounts Payable                                              1,319,468                -             -                  -         72,130     1,247,338             -           32,884
   Other Liabilities (Note 5)                                    2,522,803                -       154,527                  -        997,921       919,546       450,809          854,625
   Accrued Funded Annual Leave                                   1,386,644                -             -                  -              -     1,386,644             -          169,901
     Total Liabilities                                   $       5,228,915 $              - $     154,527 $                - $    1,070,051 $   3,553,528 $     450,809        1,057,410


 Net Position
   Unexpended Appropriations
      Obligated/Undelivered Orders                       $   349,153,392 $ 324,078,000 $         6,144,307 $             - $      8,800,260 $    9,899,775 $    231,050 $      2,765,191
      Unobligated - Encumbered                               606,634,745     580,378,488        15,398,801               -        5,423,455      5,434,001            -                -
      Unobligated - Unencumbered                           1,401,835,873   1,370,715,345           145,553      20,000,000        6,752,254      4,222,721            -      986,171,577
   Cumulative Results of Operations                            4,276,832               -                 -               -                -      4,276,832            -                -
     Total Net Position (Note 6)                         $ 2,361,900,842 $ 2,275,171,833 $      21,688,661 $    20,000,000 $     20,975,969 $   23,833,329 $    231,050 $    988,936,768

 Total Liabilities and Net Position                      $ 2,367,129,757 $ 2,275,171,833 $      21,843,188 $    20,000,000 $     22,046,020 $   27,386,857 $    681,859 $    989,994,178




     The footnotes are an integral part of these financial statements



                                                             Page 37 of 48
Millennium Challenge Corporation
Statement of Operations and Changes in Net Position
For the year ended September 30, 2005 with summary totals for the nine months ended September 30, 2004



                                                                                                Pre-Compact                     Evaluation and
                                                              2005 Total         Compacts         Funding       Threshold          Support       Administrative     Audit         2004 Total
 Revenues
   Appropriations Used                                    $       39,312,758 $       695,000 $      311,339 $               - $      3,024,031 $     33,208,694 $ 2,073,694 $        5,163,232

 Expenses                                                         35,035,926         695,000        311,339                 -        3,024,031       28,931,862     2,073,694        5,163,232

 Excess of Revenues over Expenses                         $        4,276,832 $              - $           - $               - $              - $      4,276,832 $           - $                -

 Net Position
   Excess of Revenues over Expenses                                4,276,832                -             -                 -                -        4,276,832             -              -
   Increase in Unexpended Appropriations
          Appropriated
              Obligated/Undelivered Orders                      346,388,202     324,078,000    6,144,307                             8,800,260        7,134,585      231,050         2,765,191
              Unobligated - Encumbered                          626,634,744     580,378,488   15,398,801   20,000,000                5,423,455        5,434,000            -                 -
              Unobligated - Unencumbered                        407,664,296     396,543,768      145,553                             6,752,254        4,222,721            -       992,071,577
          Permanent Recission                                   (12,000,000)    (12,000,000)           -            -                        -                -            -        (5,900,000)
       Total Increase in Unexpended Appropriations        $   1,372,964,074 $ 1,289,000,256 $ 21,688,661 $ 20,000,000 $             20,975,969 $     21,068,138 $    231,050 $     988,936,768

   Beginning Net Position                                 $     988,936,768 $     986,171,577 $           - $               - $              - $      2,765,191 $           - $                -

   Ending Net Position                                    $   2,361,900,842 $ 2,275,171,833 $ 21,688,661 $ 20,000,000 $             20,975,969 $     23,833,329 $    231,050 $     988,936,768




        The footnotes are an integral part of these financial statements




                                                              Page 38 of 48
Millennium Challenge Corporation
Statement of Functional Expenses
For the year ended September 30, 2005 with summary totals for the nine months ended September 30, 2004



                                                                                  Pre-Compact                   Evaluation and
                                                   2005 Total        Compacts       Funding        Threshold       Support     Administrative     Audit         2004 Total


      Salary and Benefits                           $13,343,440 $               - $          - $               - $       1,603     13,341,837 $           - $      2,185,333
      Travel                                         3,980,087                  -            -                 -             -     3,980,087              -          460,463
      Rent/Lease                                       718,546                  -            -                 -             -       718,546              -          322,833
      Utilities                                        207,704                  -            -                 -             -       207,704              -          170,241
      Information Technology Services                2,065,657                  -            -                 -             -     2,065,657              -          502,286
      Accounting Services                            3,186,484                  -            -                 -             -     1,112,790      2,073,694          316,496
      Interagency Agreements                           564,654                  -            -                 -       564,654              -             -                -
      Other Services                                 6,082,697                  -            -                 -     2,363,004     3,719,693              -          893,483
      Supplies and Equipment                         2,671,882                  -            -                 -             -     2,671,882              -          102,368
      Grants                                         1,024,133            695,000      311,339                 -             -        17,794              -                -
      Miscellaneous                                  1,190,642                  -            -                 -        94,770     1,095,872              -          209,729

   Total Expenses                                $ 35,035,926 $           695,000 $    311,339 $               - $   3,024,031 $   28,931,862 $   2,073,694 $      5,163,232




       The footnotes are an integral part of these financial statements




                                                      Page 39 of 48
Millennium Challenge Corporation
Statement of Cash Flows
For the year ended September 30, 2005 with summary totals for the nine months ended September 30, 2004




                                                                                                           Pre-Compact                            Evaluation and
                                                                       2005 Total          Compacts          Funding              Threshold          Support         Administrative          Audit               2004 Total
 Cash Flows from Operating Activities
   Excess of Revenues over Expenses                         $             4,276,832    $               -   $              -   $               -   $              -   $    4,276,832     $                -   $                -
   Adjustments Affecting Cash Flow:
    Appropriated Capital Used                                           (39,312,758)          (695,000)          (311,339)                -           (3,024,031)        (33,208,694)       (2,073,694)            (5,163,232)
    Decrease (Increase) in Advances/Receivables/Prepayments              (4,170,099)        (1,805,924)               -                   -           (2,500,000)            135,825               -                 (168,599)
    Increase in Accounts Payable                                          1,295,584                -                  -                   -               72,130           1,223,454               -                   23,884
    Decrease in Other Liabilities                                         1,668,178                -              154,527                 -              997,921             421,105            94,625                854,625
    Increase in Annual Funded Leave Liabilities                           1,216,743                -                  -                   -                  -             1,216,743               -                  169,901

   Total Adjustments                                              $     (39,302,352) $      (2,500,924) $        (156,812) $                  -   $   (4,453,980) $ (30,211,567) $ (1,979,069) $                   (4,283,421)

    Net Cash Used in Operating Activities                         $     (35,025,520) $      (2,500,924) $        (156,812) $                  -   $   (4,453,980) $ (25,934,735) $ (1,979,069) $                   (4,283,421)

 Cash Flows from Investing Activities

    Purchase of Property                                          $      (4,244,059) $                 -   $              -   $               -   $              -   $    (4,244,059) $                  -   $                -
    Net Cash Used in Investing Activities                         $      (4,244,059) $             -       $          -       $           -       $          -       $    (4,244,059) $              -       $            -

 Cash Flows from Financing Activities
    Appropriations received net of recissions                     $ 1,488,000,000 $ 1,289,695,256          $   22,000,000     $ 100,000,000 $         24,000,000     $   50,000,000     $ 2,304,744          $ 994,100,000
    Transfers Out                                                     (80,000,000)                                              (80,000,000)
    Net Cash Provided by Financing Activities                     $ 1,408,000,000 $ 1,289,695,256          $   22,000,000     $ 20,000,000 $          24,000,000     $   50,000,000     $ 2,304,744          $ 994,100,000

    Net Increase in Cash                                          $ 1,368,730,421      $ 1,287,194,332     $   21,843,188     $    20,000,000     $   19,546,020     $   19,821,206     $     325,675        $ 989,816,579

    Fund Balance with Treasury, Beginning                         $     989,816,579    $   986,171,577     $              -   $               -   $              -   $    3,288,818     $     356,184        $                -

    Fund Balance with Treasury, Ending                            $ 2,358,547,000      $ 2,273,365,909     $   21,843,188     $    20,000,000     $   19,546,020     $   23,110,024     $     681,859        $ 989,816,579




    The footnotes are an integral part of these financial statements




                                                           Page 40 of 48
Millennium Challenge Corporation
Statement of Budgetary Resources
For the year ended September 30, 2005 with summary totals for the nine months ended September 30, 2004



                                                                                                           Pre-Compact                  Evaluation and
                                                                            2005 Total       Compacts        Funding       Threshold       Support     Administrative   Audit       2004 Total
 Budgetary Resources:
   Budget Authority:
           Appropriations                                               $ 1,500,000,000 $ 1,301,695,256 $ 22,000,000 $100,000,000 $ 24,000,000 $ 50,000,000 $ 2,304,744 $ 1,000,000,000
           Net Transfer, Current Year Authority
   Unobligated Balance - Beginning of Period                                 986,171,577     986,171,577
   Unobligated Balance - Transferred
   Spending Authority from Offsetting Collections                                        -
   Advances Received                                                                     -
   Adjustments:
           Recoveries of Prior Years Obligations                                      -
           Permanently Not Available (Note 7)                               (12,000,000)    (12,000,000)           -            -            -            -           -               (5,900,000)
                           Total Budgetary Resources                    $ 2,474,171,577 $ 2,275,866,833 $ 22,000,000 $100,000,000 $ 24,000,000 $ 50,000,000 $ 2,304,744 $            994,100,000
 Status of Budgetary Resources:
   Obligations Incurred                                                 $    420,449,393 $   324,773,000 $    6,455,646 $ 34,748,434 $ 11,824,290 $ 40,343,279 $ 2,304,744 $           7,928,423
   Unobligated Balance Available:
           Apportioned                                                      683,006,839     580,378,488   15,544,354   65,251,566   12,175,710    9,656,721           -                      -
   Unobligated Balance Not Available:                                     1,370,715,345   1,370,715,345            -            -            -            -           -                      -
                           Total Status of Budgetary Resources          $ 2,474,171,577 $ 2,275,866,833 $ 22,000,000 $100,000,000 $ 24,000,000 $ 50,000,000 $ 2,304,744 $              7,928,423

 Relationship of Obligations to Outlays:
   Obligated Balance, Net - as of October 1, 2004                       $      3,645,002 $             - $            - $          - $          - $  3,645,002 $         - $                   -
   Obligations Incurred                                                      420,244,138     324,773,000      6,298,834   34,699,991   11,824,290   40,343,279   2,304,744             7,928,423
   Recoveries of Prior Years Obligations                                               -
   Adjustments
   Obligated Balance, Net - End of Period
           Accounts Payable                                                 (5,335,899)             -     (154,527)     (21,353)  (1,070,051) (3,639,159)   (450,809)                 (1,048,410)
           Undelivered Orders                                             (379,526,106)  (322,272,076)  (6,144,307) (34,678,638)  (6,300,260) (9,899,775)   (231,050)                 (2,596,592)
                            Total Outlays                               $   39,027,135 $    2,500,924 $          - $          - $ 4,453,979 $ 30,449,347 $ 1,622,885 $                 4,283,421
   Outlays:
           Disbursements                                                      39,232,391       2,500,924       156,813         48,443       4,453,980     30,449,346    1,622,885      4,283,421
           Collections / Refunds                                                       -
                            Net Outlays                                 $     39,232,391 $     2,500,924 $     156,813 $       48,443 $     4,453,980 $ 30,449,346 $ 1,622,885 $       4,283,421




     The footnotes are an integral part of these financial statements

                                                               Page 41 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005


Note 1 – Summary of Significant Accounting Policies

   A. Basis of Presentation

   These financial statements have been prepared to report the financial position, results of
   operations, cash flows, and budgetary resources for the Millennium Challenge
   Corporation (the Corporation), as required by Section 613 of the Millennium Challenge
   Act of 2003 and the Government Corporation Control Act (31 USC 9106). The
   Corporation was formed on January 23, 2004. These financial statements have been
   prepared from the books and records of the Corporation and are presented in accordance
   with the applicable form and content requirements of the Office of Management and
   Budget, the Secretary of the Treasury, and the Government Management and Reform Act
   of 1994.

   The corporations accounting policies follow generally accepted accounting principles for
   the federal government, as recommended by the Federal Accounting Standards Advisory
   Board (FASAB). The Corporation is not subject to income tax.

   The principal financial statements of the Corporation are the:

       •   Statement of Financial Position;

       •   Statement of Operations and Changes in Net Position;

       •   Statement of Functional Expenses;

       •   Statement of Cash Flows; and

       •   Statement of Budgetary Resources.

   These statements are comparative between fiscal years 2004 and 2005. Since the
   Corporation was only formed in January 2004, fiscal year 2004 only represents nine
   months of data, while fiscal year 2005 represents twelve months of data. The notes to the
   financial statements are considered an integral part of the financial statements.

   B. Reporting Entity

   The Corporation was created by the Millennium Challenge Act of 2003 (Public Law 108
   199). The Corporation provides United States assistance for global development. This
   assistance is provided in such a manner as to provide economic growth and the
   elimination of extreme poverty and strengthens good governance, economic freedom, and
   investments in people.




                                     Page 41 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

   The Millennium Challenge Act provides specific authorities to MCC that result in the
   following definitions that are used in these statements:

   Compact: An agreement entered in to between the Corporation and an eligible country
   that establishes and funds a multi-year plan for achieving development objectives.

   Pre-Compact Funding: Contracts or Grants made by the Corporation to an eligible
   country for the purpose of facilitating the development and implementation of a compact.

   Threshold: Assistance provided by the Corporation to a candidate country for the purpose
   of assisting that country to become eligible for Compact funding from the Corporation.

   Evaluation and Support: Program budgetary resources to assess and work with countries
   on key elements of program development and implementation, including program results
   and impact measurement and management.

   Administrative: Budgetary resources to meet the administrative and overhead expenses.

   Audit: Budgetary resources provided to the Inspector General of the Corporation to
   conduct reviews, investigations and inspections of all aspects of the operations and
   activities of the Corporation.

   C. Budgets and Budgetary Accounting

   The activities of the Corporation are funded through No-Year Appropriations, wherein
   the funds are available for obligation without fiscal year limitation and remain available
   until expended. MCC was provided a total appropriation of $1.5 billion for Fiscal Year
   2005. MCC’s Administrative, Evaluation and Support, and Audit funds are limited as to
   amount and it is MCC’s policy to transfer all unobligated funds at the end of the year in
   these categories to the Compacts fund at the beginning of the next fiscal year.

   The Threshold Program is implemented by the United States Agency for International
   Development (USAID) under an “Appropriation Allocation” wherein the obligation
   authority for the funds provided the Corporation is transferred to USAID; the funds
   remain in MCC’s account but MCC allocates them to USAID for obligation. USAID is
   responsible for obligating these funds and meeting the financial reporting requirements
   stipulated by MCC. Accordingly, USAID will be presenting the net cost and proprietary
   balances on its financial statements.

   D. Basis of Accounting

   Transactions are recorded on both an accrual and budgetary basis. Under the accrual
   method of accounting, revenues are recognized when earned and expenses are recognized
   when a liability is incurred, without regard to receipt or payment of cash.



                                     Page 42 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

   Budgetary accounting facilitates compliance with legal constraints and controls over the
   use of federal funds.

   The accompanying statements of: Financial Position, Operations and Changes in Net
   Position, Cash Flows, and Functional Expenses have been prepared on an accrual basis.
   The Statement of Budgetary Resources has been prepared in accordance with budgetary
   accounting rules. The statement of Cash Flows has been prepared to reconcile budgetary
   to financial (proprietary) accounting information.

   E. Fund Balance with Treasury

   The Corporation does not maintain cash in commercial bank accounts. The U.S.
   Treasury processes all cash receipts and disbursements for the corporation. The Fund
   Balance with Treasury represents no-year funds, which are maintained in appropriated
   funds that are available to pay current and future commitments.

   F. Advances to Others

   The Corporation advances funds, primarily in response to grantee and Federal agency
   drawdown requests, to facilitate completion of any approved grant or inter-agency
   agreement.

   G. Property and Equipment

   The Corporation capitalizes property and equipment at historical cost for acquisitions of
   $25 thousand or more, with an estimated useful life of two or more years. These assets
   can include leasehold improvements, telephone equipment, computer systems equipment,
   copiers, computer software, furniture, and assets under capital leases. These assets are
   depreciated (or amortized) over estimated useful lives ranging from two to 10 year, using
   the half-year convention. The Corporation records a full year’s depreciation when assets
   are placed in to service during the first half of the fiscal year and no depreciation when
   assets are placed in the second half of the fiscal year. Accordingly, no depreciation was
   taken in fiscal year 2005. Normal maintenance and repair costs on capitalized property
   and equipment are expensed when incurred.

   H. Grants (Compacts and Pre-Compact Funding) Payable

   Grants are made to eligible countries with an approved Compact or Pre-Compact funding
   agreement. Grants become budgetary obligations, but not liabilities, when they are
   awarded and enter in to legal force. At the end of each fiscal year, the Corporation
   reports the total amount of unreimbursed authorized grantee expenses, incurred under the
   terms of the grants, as a payable. The balance at the end of FY 2005 was $0.




                                     Page 43 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

   I. Accounts Payable

   The Corporation records as liabilities all amounts that are likely to be paid as a direct
   result of transactions or events that have already occurred. Accounts payable represents
   amounts due to both Federal and non-Federal entities for goods and services received by
   the Corporation, but not paid for at the end of the fiscal year.

   J. Actuarial FECA Liability

   The Federal Employees’ Compensation Act (FECA) provides income and medical cost
   protection to covered Federal civilian employees injured on the job, employees who have
   incurred a work-related occupational disease, and beneficiaries of employees whose
   death is attributable to a job-related injury or occupational disease.

   Claims incurred for benefits for Corporation employees under FECA are administered by
   the Department of Labor (DOL) and later billed to the Corporation. The Corporation’s
   actuarial liability for worker’s compensation includes any costs incurred but unbilled as
   of year-end, as calculated by DOL, and is not funded by current appropriations.

   The Corporation has no FECA liabilities incurred during fiscal year 2005. Therefore,
   none are reflected on the statements for this fiscal year.

   K. Other Liabilities

   Other liabilities included amounts owed but not paid at the end of the fiscal year for
   payroll and benefits; and the portion of the liability for the Federal Employees’
   Compensation Act charges incurred and billed but unpaid.

   L. Accrued Annual Leave

   Annual leave is accrued as a liability based on amounts earned but not used as of the
   fiscal year-end. Each year, the balance in the accrued annual leave account is adjusted to
   reflect current year pay rates and leave balances. Annual leave is funded from current
   appropriations. As unused annual leave is used in the future, financing will be obtained
   from appropriations current at that time. Sick leave and other types of non-vested leave
   are expensed when used.

   M. Net Position

   Net position is composed of unexpended appropriations and cumulative results of
   operations. Unexpended appropriations are funds appropriated and warranted to the
   Corporation that are still available for expenditure at the end of the fiscal year.
   Cumulative results of operations represent the net differences between revenues and
   expenses from the inception of the Corporation.



                                      Page 44 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

   N. Revenues

   Appropriations used: The Corporation obtains funding for its program and operating
   expenses through no-year appropriations. Appropriations are recognized as an accrual-
   based financing source at the time they are used to pay program or administrative
   expenses, except for expenses to be funded by future appropriations.

   O. Retirement Benefits

   The Corporation’s employees participate in either the Civil Service Retirement System
   (CSRS) or the Federal Employees Retirement System (FERS). FERS was established by
   the enactment of Public Law 99-335. Pursuant to this law, FERS and Social Security
   automatically cover most employees hired after December 31, 1983. Employees hired
   prior to January 1, 1984, elected to join FERS and Social Security or remained in CSRS.

   For employees covered by CSRS, the Corporation contributes 8.51 percent of their gross
   pay towards retirement. For those employees covered by FERS, the Corporation
   contributes 11.50 percent of their gross pay towards retirement. Employees are allowed
   to participate in the Federal Thrift Savings Plan (TSP). For employees under FERS, the
   Corporation contributes an automatic one percent of basic pay to TSP and matches
   employee contributions up to an additional four percent of pay, for a maximum
   Corporation contribution amounting to five percent of pay. Employees under CSRS may
   participate in the TSP, but will not receive either the Corporation’s automatic or matching
   contributions.

   The Corporation made retirement contributions of $30 thousand to the CSRS Plan and
   $876 thousand and $226 thousand to the FERS and TSP Plans in fiscal year 2005.

   P. Use of Estimates

   The preparation of financial statements requires management to make estimates and
   assumptions that affect the reported amounts of assets and liabilities, the disclosure of
   contingent assets and liabilities at the date of the financial statements, and the reported
   amounts of revenue and expenses during the reporting period. Actual results could differ
   from these estimates.

   Q. Contingencies

   The Corporation can be a party to various routine administrative proceedings, legal
   actions, and claims brought by or against it, including threatened or pending litigation
   involving labor relations claims, some of which may ultimately result in settlements or
   decisions against the Corporation. In the opinion of the Corporation’s management and
   legal counsel, there are no proceedings, actions or claims outstanding or threatened,
   which would materially impact the financial statements of the Corporation.



                                      Page 45 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

   R. Judgment Fund

   Certain legal matters to which the Corporation can be named as a party may be
   administered and, in some instances, litigated and paid by other Federal agencies.
   Generally, amounts paid in excess of $2.5 thousand for Federal Tort Claims Act
   settlements or awards pertaining to these litigations are funded from a special
   appropriation called the Judgment Fund. Although the ultimate disposition of any
   potential Judgment Fund proceedings cannot be determined, management does not expect
   any liability or expense that might ensue would be material to the Corporation’s financial
   statements.

   S. Donated Services

   The Corporation utilizes donated services from other Federal agencies and private firms
   in the course of business operations. The approximate fair market value of these donated
   services during the fiscal year is $515,000. This amount is not material and therefore, is
   not reflected in the financial statements.

   T. Custodial Receivable and Liability

   It is expected that the Corporation will fund all its Compacts with advances that are
   required to be placed in an interest-bearing account, if legally feasible, until disbursed.
   The interest earned on these accounts are refunded to the Corporation and deposited in to
   an account at the U.S. Treasury. The receivable and related liabilities are not reflected in
   these financial statements. As at September 30, 2005, the Corporation had outstanding
   advances related to compact financing of approximately $1.8 million and the interest
   earned is estimated at about $ 17,000.

Note 2 – Fund Balance with Treasury

The U.S. Treasury accounts for all US Government cash on an overall consolidated basis.
The Fund Balance with Treasury line on the Statement of Financial Position consists of the
following:

Fund Balance with Treasury as of September 30
(In Dollars)

                                    2005                    2004
Appropriated Funds
  Unobligated               1,973,684,995           986,171,577
  Obligated                   384,862,005             3,645,002
Total                     $ 2,358,547,000         $ 989,816,579




                                      Page 46 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005


Note 3 – Advances/Accounts Receivable

Advances reflect amounts provided grantee countries and other Federal agencies, in
accordance with their Compacts or inter-agency agreements, respectively. Accounts
receivable reflect overpayments of payroll and travel expenses to current employees of the
Corporation. As such, no allowance for doubtful accounts is necessary.


Note 4 – Leasehold Improvements

The only capitalized asset is the leasehold improvements on MCC headquarter offices
located at 875 15th Street, NW, Washington, DC, 2005. Occupancy of this building by the
Corporation began in July 2005. MCC’s policy is to use the straight line method for
computing depreciation.


Note 5 – Other Liabilities

Other Liabilities as of September 30
(In Dollars)

                Type                         2005           2004

   Evaluation and Support              $   997,921      $       0

   Travel                              $   747,143      $ 81,001

   Office of the Inspector General     $   450,809      $ 356,184

   Miscellaneous                       $   326,930      $ 87,224

   Payroll                             $         0      $ 330,216

Total                                  $ 2,522,803      $ 854,625




                                     Page 47 of 48
Millennium Challenge Corporation
Notes to the Financial Statements
As of September 30, 2005

Note 6 – Net Position

The reported net position consists of unexpended appropriations and cumulative results of
operations, which reflects the difference between revenues and expenses since the
Corporation’s inception.

Breakdown of Obligated/Undelivered Orders and Unobligated–Encumbered grant funds:




Note 7 – Permanent Rescission

In fiscal years 2005 and 2004, respectively, $12 million and $ 5.9 million of amounts
previously appropriated under the FY 2005 and FY 2004 Foreign Operations, Export
Financing, and Related Programs Appropriations Acts (Public Law 108-447 and Public Law
108-199, respectively), were rescinded. The rescissions were part of the Across-the-Board
Rescissions enacted for fiscal years 2005 and 2004.




                                     Page 48 of 48
